 Department of Health and Human Services

ADMINISTRATION   ON AGING

            AND

         OFFICE OF

   INSPECTOR GENERAL





 STATE IMPLEMENTATION   OF THE
    FINANCIAL MANAGEMENT
  REQUIREMENTS   OF THE OLDER
         AMERICANS ACT




                  APRIL 1993

                                     ADMINISTRATION               ON AGING


The Administration        on Aging (AoA)       is the principal   Federal   agency designed   to carry out the
provisions of the Older Americans Act (OAA). It advises the Secretary of Health and Human
Services and other Federal agencies on the characteristics, circumstances and needs of older
individuals.   Further,    it develops   policies,    plans, and programs   designed   to promote   their
welfare.

AoA administers three grant programs under the Older Americans Act. The largest progr:lm -
- Title III of the Act -- consist of formula grants to States to establish State and community-
based programs for older individuals with the purpose of preventing the premature
institutionalization     of older individuals.  The second program -- Title VI -- consists of
discretionary     grants with the same purpose as Title III, but to meet the unique needs of older
Native Americans.         The third program -- Title IV -- is also discretionary.     Its purpose is to fund
research, demonstration,        and training activities to elicit knowledge and techniques to improve
the circumstances       of older Americans.    (The 1992 Amendments         to the OAA created a fourth
program -- Title VII -- which provides funds for State activities to protect the rights of
vulnerable older people. Prior to the 1992 Amendments,               Title III of the OAA provided the
funds for these activities.)

                                  OFFICE OF INSPE~OR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95452. as
amended, is to protect the integrity of the Department    of Health and Human Semites’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs.      This
statutory mission is carried out through a nationwide network of audits, investigations.   and
inspections conducted by three OIG operating components:        the Office of Audit Services, the
Office of Investigations,  and the Office of Evaluation and Inspections.   The OIG also informs
the Secretary of HHS of program and management         problems and recommends     courses to
correct them.

The OIG’S Office of Evaluation and Inspections(OEI) conducts short-term management             and
program evacuations (called inspections) that focus on issues of concern to the Department.
the Congress, and the public. The findings and recommendations      contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental   programs.

                                                     THIS REPORT

This report is the result of a joint effort between AoA and OIG/OEI to assess the
implementation    of Title HI of the Older Americans Act. OIG staff in the New York and
Dallas regional offices provided technical support to the joint project. AoA staff in New York
and Dallas directed the project with all regional offices participating in the development of
instruments   and data collection.

For additional information, please contact:

AoA               John Dia~ Regional Program Director-Dallas
OIG               Jack Molnar, Project Leader-New York
 Department of Health and Human Services

ADMINISTRATION   ON AGING

            AND

         OFFICE OF

   INSPECTOR GENERAL




 STATE IMPLEMENTATION OF THE
    FINANCIAL WAGEMENT
  REQUIREMENTS OF THIZ OLDER
        AMERICANS ACT




             APRIL 1993   OE14)2-91-01514
                                            I
               EXECUTIVE                         SUMMARY
PURPOSE

To review State Units’ on Aging (SUA) implementation of the financial management
requirements of Title III of the Older Americans Act (OAA).

BACKGROUND

In an effort to strengthen its stewardship of the O-     the Commissioner of the
Administration on Aging (AoA) requested technical assistance from the Office of
Inspector General (OIG) in designing a review of their primary Title III grantees --
SUAS. After reviewing traditional and current financial management activities, and
discussing potential approaches for future efforts, we agreed that a review of
individual States would be instituted in such a way as to provide the Commissioner
with an overview of how States are implementing key components of Title III. The
OIG agreed to assist AoA in developing national, standardized review instruments for
key components of Title III. In order to conserve limited travel funds the reviews
would be conducted on a sample of States and would focus on only five programmatic
areas -- stewardship, targeting, ombudsman, nutrition, and financial management.

This report on financial management addresses the SUA’S financial management of
OAA funds and its funding and oversight of area agencies on aging (lL%%). It
focuses on issuing guidance on and monitoring implementation of the key financial
management requirements of Title III of the O-     including the area planning
process.

METHODOLOGY

The reviews were conducted in a stratified, random sample of 20 States based upon
the population of individuals over 60 years of age in each State. In the first step of
the sampling process, States were divided into four strata based upon the number of
older individuals in each State. In the second step, five States were selected from
each stratum. This stratified, random sample permits a generalization of findings from
the 20 sample States to the Nation.

FINDINGS

While States Address A Majority Of Financial Management     Reqhemenfi,   Some
Vulnerabilities StiZl Bist

   �   One-third of States that engage in program development and coordination
        activities exceed the allowable Federal share of the costs.
   �   Many States do not monitor voluntary contribution or the use of profit-making
        organizations



                                             i
Most States Have Impkmented      Required Audi      Bocesses

  �
       Virtually all States require audits of area agencies and have follow-up procedures
  �
       The most common deficiencies noted among area agencies are internal control
        weaknesses

States l%ovide area agencies Wtih Technical Assktance          And ?kabzkg To Addrew
Deficiencia

  �    60 percent of States provide financial management technical assistance to area
        agencies
   �   Most common deficiencies are in accounting and budgeting




                                               ii
                       TABLE                   OF CONTENTS

EXECUTIVESUMM.ARY                     . . . . . . . . . . . . . . . . . . . . . . . . . . ..= ...0000   �OOO*Ci


INTRODUCTION             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..=~~.   .~OOOOO””O1




    States Address Most Financial Management                      Requirements           ................ 4

    Most States Have Implemented                Audit Processes          ........................ 8

    States Provide Technical Assistance And Training . . . . . . . . . . . . . . . . . . . . . . . 9



APPENDICES

k   Appendix A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...=   .- A-1
                         INTRODUCTION
PURPOSE

To review State Units’ on Aging (SUA) implementation of the      financial management
requirements of Title III of the Older Americans Act (OAA).      In this report, the term
“financial management” refers to the SUA’S fiscal management      of OAA funds and its
funding and oversight of AAAs. It focuses on issuing guidance     on and monitoring
implementation of the key financial management requirements       of Title III of the
0~     including the area planning process.

BACKGROUND

Under the 0~      the Administration on Aging (AoA) serves as the principal Federal
advocate for older individuals, providing national leadership in the development of
programs to address their needs. Through Title III of OAA (Grants for State and
Community Programs on Aging), AoA encourages and assists SUAs and area agencies
on aging (A&%) to implement a system of coordinated community-based services to
prevent the premature institutionalization of older individuals by allowing them to
remain in their own community.

Under Title III, AoA distributes approximately $’765million in formula grants to States
based on the age 60+ population within each State. The SUAs use about 5 percent
of the grant on administration, and then fund AAAs who then contract for the
supportive services, nutrition services and multipurpose senior centers. The single
largest component of Title III, the nutrition program, provides approximately $450
million for congregate and home-delivered meals. Other key program components
include supportive services (i.e., access services, in-home services and legal assistance)
and the Ombudsman program which serves as an advocate for residents in long term
care facilities.

One of AoA’s major administrative responsibilities is to provide stewardship over the
States’ implementation of the Title III program. However, AoA’s capacity to carry out
its stewardship responsibilities declined substantially during the 1980’s due to a
significant reduction in resources. More specifically, AoA sustained a 47 percent
reduction in staff and 75 percent reduction in travel funds. Each regional office had
only $2,000 annually for travel. Because they could not monitor SUAs’, AoA became
further and further removed from the activities of the SUAs and their area agencies
on aging.

In an effort to strengthen its stewardship of the OAA, the Commissioner of AoA
requested technical assistance from the Office of Inspector General (OIG) in
designing a review of their primary Title III grantees -- SUAs. In response to the
Commissioner’s request, OIG staff met with key AoA headquarters and regional staff
to identi& traditional and current stewardship activities, and to discuss potential



                                             1
approaches for future efforts. As a result, we agreed that the review of individual
States would be instituted in such a way as to provide the Commissioner with an
overview of how States are implementing key components of Title III. The OIG
agreed to assist AoA in developing national, standardized review instruments for key
components of Title III and in writing a report summarizing States’ implementation of
the Act. We also agreed that in order to conserve limited travel funds the reviews
would be conducted on a sample of States and would focus on only five programmatic
areas -- stewardship, targeting, ombudsman, nutrition, and financial management.

Designing the review began with the meeting of a review team of OIG and selected
AoA regional staff. They brainstormed approaches, identified Federal reporting and
operating requirements for SUAS and AAAs, and drafted instruments containing the
review questions and criteria. The draft instruments were shared with AoA
headquarters staff and each regional office for comments, and then revised to reflect
comments.

The OIG/AoA review teams pre-tested the instruments and data collection
methodology by conducting reviews for each of the five instruments in six States
located in four different Federal regions. The pre-test identified that a great deal of
time was lost explaining criteria (interpreting law and regulation) and searching for
documentation. Accordingly, the review team modified each of the instruments and
changed the data collection methodology. The most significant change to the
methodology required the sharing of the review instruments with the States prior to
the site visit in the belief that if States are aware of and understand the review criteria
being used during the review, they will be better prepared to provide required
documentation and to discuss specific issues.

METHODODGY

The reviews were conducted in a stratified, random sample of 20 States based upon
the population of individuals over 60 years of age in each State. These are the same
data used to allocate Title III funds among States. In the first step of the sampling
process, States were divided into four strata based upon the number of older
individuals in each State. In the second step, we selected five States from each
stratum. This stratified, random sample permits us to generalize findings from the 20
sample States to the Nation. Table I indicates those States selected for the review
process (See Table I).

We also used sampling techniques during site visits to each State for the reviews of
specific area plans and assessments.  In these instances, we selected a simple, random
sample of 10 AAAs prior to the visit to review on-site. For those States with less than
10 AAAs, all AAAs were included in the review.




                                             2
                                           TABLE I


  III                               SAMPLE STATES

           Stratum     1       Stratum 2          Stratum 3        Stratum 4

        California         Michigan            Wisconsin      New Hampshire
        Pennsylvania       Indiana             Colorado       North Dakota
        New York           Massachusetts       Oklahoma       Nevada
        Texas              Georgia             Maine          District
        Florida            North               Oregon           of Columbia
                              Carolina                        Montana

The data collection was conducted in two phases -- an AoA regional office desk
review and an on-site review at the SUA. During the desk review phase, we looked at
area plan guidance and program instructions, as well as the State’s assessment
instruments for AAAs to determine if they are consistent with Federal law and
regulations. We also reviewed priority services waivers and targeted populations
participation data from the State Program Report for Title III.

Following the desk review, each State was sent a proposed agenda for the site visit, a
listing of the AAAs whose area plans and assessment reports will be reviewed, a COpy
of the financial management review instrument (Appendix A), and the findings from
the desk review to be discussed during the site visit.

The review instrument focused on the guidance SUAS issued to AAAs, on key
requirements of Title 111,and on the instruments and procedures they use to assess
AAAs with those requirements. A review of area plans and assessment reports
determine whether, and to what extent, they reflect OAA requirements. The
instruments also focus on the issues of SUA operating procedures, and on training and
technical assistance activities.

We entered data from the financial management review instruments into three
databases. One database contained the responses to the open- and closed-ended
questions on the instrument and the other two contained the reviews of 191 area
plans, audits and assessments. The number of responses to questions vary because
some questions did not apply to the four States in Stratum 4-- NH, ND, NV, & DC --
which are single planning and service area (SPSA) States.

The percentages cited in this report are based on the responses to specific questions
contained in the review instrument. The responses are weighted to reflect the sampling
plan and are projected to the Nation. The precision at the 90-percent confidence
intervals vary for each question from plus or minus 6 to 21 percent based upon the
nature of the question (categorical or continuous) and the number of respondents to
each question.



                                              3
                                FINDINGS
WHILE STATES ADDRESS A MAJORITY OF FINANCIAL MANAGEMENT
REQUIREMENTS,  SOME VULNERAJ31LITIES STILL EXIST

State Administration

The Older American Act (OAA) limits the amount that maybe spent for State agency
administration. A State agency may spend Up to $300,000 or 5 percent of its Title III
allotment (whichever is greater) for administrative purposes. It may spend an
additional 3/4 of one-percent more of its Title III allotment with the approval of the
Administration on Aging (AoA). We found that most States (91 percent) have
documentation indicating that they spend less than either $300,000 or 5 percent of
their Title III allotments. Only, 4 percent indicate spending more than $300,000 or 5
percent.

AAA Administration

After subtracting the costs for State administration from the Title III allotment,
statewide expenditures for AAA administration cannot exceed 10 percent of the Title
III allotment balance. Our review found that 4 percent of States spent more than the
authorized amount.

Our review also found that 71 percent of the State agencies have issued policy or
guidance regarding this percen~age limitation on area agency on aging expenditures; 9
percent do not. (The remaining 20 percent are single planning and service area
States.) Further, only 41 percent of State agencies monitor A&U to ensure that this
expenditure limit is met. Additionally, we found that only 24 percent of the States
have developed controls at the State level to ensure that this requirement is met.

The OAA funds used for the AAA administration must come from Title III-B or Title
III-C allotments. We found that 62 percent of the States have policy or guidance that
either fully or partially addressed this limitation. However, an equal percent of States
do not monitor AAAs to ensure that only Title III-B and Title III-C funds are being
spent for administration. In addition, we determined that 21 percent of States have
State-1evel internal controls to ensure that funds for &% administration are derived
from the appropriate allotments.

1+-ogram Development   and Coordination

The Title III regulations place a limit on the Federal share of the cost of AAA
expenditures for program development and coordination activities. The Federal share
of costs is limited to 75 percent of the total cost of such activities, until expenditures
in a State exceed the m&imum amount that can be spent for AAA administration.




                                             4
When this maximum amount is expended in a State, then the limit on the allowable
Federal share of costs for program development and coordination activities increases
to 85 percent. AAAs in 42 percent of States engage in program development and
coordination activities. Thirty-one percent of these States exceed the allowable
Federal share of such costs.

Ruxal @7en4iitures

Each Federal fiscal year, Title III expenditures in rural areas must equal or exceed 105
percent of specified OAA funds spent in rural areas in fiscal year 1978. In 30 percent
of the States, annual Title III expenditures in rural areas equaled or exceeded the
required amount. However, only a few States have developed internal procedures to
document that this requirement is being met.

Seventy percent of States did not know the amount of Older Americans Act
expenditures in rural areas in Fiscal Year 1978. Forty-six percent of the States did not
know the amount of Older Americans Act expenditures in rural areas, during a recent
fiscal year. Additionally, we found that 42 percent of States do not have policy or
guidance which addresses this requirement.

i!ltle III-B Allotment

Each State agency’s plan must specify the minimum percentage of each AAA’s Title
III-B allotment which must be spent for access, in-home, and legal services. In turn,
each area plan must assure that AA& will spend the State agency’s prescribed
percentage for each the three categories of services. Upon request, and under
specified circumstances, the State agency is authorized to grant a waiver to an area
agency which suspends those requirements for one or more of these three categories
of service. (See the report, “State Implementation of Stewardship Requirements of
the Older Americans Act” 02-91-01512, for a discussion of waiver procedures.)

Sixty-three percent of the States have fully addressed the policy or guidance which
requires expenditures of the State-stipulated percentages in each service category.
However, 18 percent do not have policy or guidance which addresses the required
expenditures. Also, only 36 percent of the State agencies assess the extent to which
AAAs expend the required amounts for the three categories of services, while 44
percent of the State agencies do not monitor to determine if AAAs are expending the
required amount.

 Voluntay   Contn”butions

In general, nearly all State agencies have either fully or partially addressed 45 CFR
1321 requirements pertaining to voluntary contributions. However, 9 percent of the
States do not provide guidance to AAAs to ensure that such contributions are used to
enhance services.



                                            5
In reviewing the States’ assessment instruments or related materials used to determine
AAAs response to the criteria, 20 percent of States do not determine whether
participants are given an opportunity to make voluntary contributions or there is
privacy for individuals making contributions. Further, 18 percent do not address
safeguards and accounting for contributions, and 46 percent do not assess to
determine if support services contributions are being used to expand support services.

In addition, the OAA stipulates that contributions for nutrition services must be used
to increase meals, facilitate access to meals, or to provide other supportive services
directly related to nutrition services. All States have issued policy or guidance to
AA& which either fully or partially addresses the allowable use of nutrition services
contributions. However, 46 percent of the States do not address this requirement on
their assessment instruments.

Xransfen Between Congregate and Home-Delivered    Meak

Each Federal fiscal year, State agencies may transfer up to 30 percent of the
congregate meals allotment to the home-delivered meals allotment, or from the home-
delivered meals allotment to the congregate meals allotment without approval. Any
transfers exceeding 30 percent can only be made with the approval of the
Commissioner on Aging. We found that the 4 percent of States that transferred more
than 30 percent between the congregate meals allotment and the home-delivered
meals allotment had obtained the required approval of the Commissioner on Aging.

Most States (82 percent) have either fully or partially addressed policy or guidance
regarding the limitation on transfers between allotments; 18 percent have not.
Further, while 35 percent of the States monitor AAAs for the limitation on transfers
between allotments, 60 percent do not. Of those States that do conduct assessments,
a review of assessment reports indicates that 78 percent address this requirement
through State-level controls.

Transfen Between Suppti    Services and Nutdion

State agencies have authority to annually transfer up to 30 percent of Title III-B
supportive services funds to the Title III-C nutrition program. The converse is also
authorized. We found that 59 percent of States either fully or partially addressed this
transfer authority in policy. Although 22 percent of the States do not have policy or
guidance, this probably reflects those State agencies having internal controls at the
State level to regulate the amounts that are transferred among these allotments. We
determined that since many States have State-level controls monitoring the transfer of
allotments, it was not necessary in this study to determine if State agencies were
assessing AAAs to determine the nature and the extent of transfers between
allotments.




                                            6
Pro@-making   Organizations

The OAA authorizes recipients of grants or contracts (AAAs) to enter into a contract
with a profit-making organization, subject to the approval of the State Agency.
Seventy-three percent of State agencies have issued policy or guidance regarding this
requirement; 8 percent do not.

Half of the States do not monitor AAAs to ensure that they are meeting requirements.
Of the States which do monitor the AA&, 16 percent manage this requirement with
State-level controls.

Record Retention

Federal financial management regulations specify the length of time that records must
be retained by recipients of Federal funds. While 98 percent of the States provide
such guidance to AA&, 35 percent do not monitor whether each A&4 retains records
for three years after the date that the AAA submits its final expenditure report, or the
date on which resolution of audits exceptions, litigations, etc., occurs (whichever date is
later).

Dedktion   Alternative

The Title III regulations do not allow the deduction alternative in applying program
income. Sixty percent of the States have policy or guidance which fully addressed this
requirement. Although 25 percent of the States do not have policy or guidance, many
of the State agencies indicate they are able to control use of the deduction alternative
at the State level.

Federal Financial Interest ik Senior Centen

The Federal government retains financial interest in senior centers acquired or
constructed with OAA funds. A share of funds is returned to the Federal government
under certain circumstances: 1) the owner of the facility ceases to be a public or
private agency or organization, or 2) the facility ceases to be used for the purposes for
which it was acquired. This financial interest remains in effect for ten years after the
acquisition of a senior center and for 20 years after the construction of a senior center.

Seventy-three percent of States have fully addressed this issue in policy or guidance,
and 60 percent monitor AAAs to ensure that the appropriate Federal share of the
cost of senior centers will revert to the United States Treasury. However, 23 percent
of the States do not have policy or guidance addressing this requirement, and 40
percent do not monitor AAAs to determine what they are doing to ensure the
retention of Federal financial interest in senior centers.




                                              7
Ombudkman     l%o~am

For State long-term care ombudsman programs, each year, State agencies must
expend an amount of supportive services funds that equals or exceeds the amount of
supportive services funds expended for this program in FY 1987. A majority of the
States (96 percent) have documented expenditures for the State long-term care
ombudsman program which equal or exceed the required amount. However, 4
percent of the State agencies did not expend sufficient supportive services funds to
meet this requirement.1

Maintenance   of Effort

The Title III regulations require each State agenq to annually spend from State
sources at least the average amount that was spent annually from State sources during
the previous three years. To ensure this requirement is met, AoA requires State
agencies to submit a certification of maintenance of effort annually. In this
certification, the State agency specifies the amount of State funds expended in the
previous year. Further, the State agency certifies whether the amount of State funds
being spent annually is 1) less than the required funding level, 2) equal to the required
funding level, or 3) more than the required funding level.

We reviewed the amount expended from State sources in the most recent fiscal year
as compared with the documented prior three-year average expenditures from State
sources. All States provided documentation to determine prior three-year average
amounts expended for maintenance of effort. The findings of this review are that 100
percent of the States equal or exceed the amount from State sources that is required
to meet the maintenance of effort requirements.

MOST STATES HAVE IMPLEMENTED                 REQUIRED      AUDIT    PROCESSES

Ninety-six percent of the States have policies and procedures on audits and 84 percent
of the States direct grantees to follow Office of Management and Budget Circulars in
an attempt to ensure audits will be conducted in accordance with applicable law and
regulations. To assure that audits are conducted 46 percent of States require AAAs to
budget funds for audits and 89 percent require grantees to transmit all audit reports to
the State agency for review. State agencies usually use letters (90 percent) to indicate
how and when grantees are to submit information on actions taken to address findings.
Only 30 percent indicate that grantees are provided this information through guidance
in procedures manuals.

Most States (82 percent) routinely monitor and/or assess grantees until all grantee
audit deficiencies have been resolved, and 48 percent also require grantees to submit a
written report describing progress in correcting deficiencies cited in audit findings.

We reviewed the most currently completed annual cycle of AAA grantee audits to
determine 1) the type of audit conducted, 2) when the last audits were completed, 3)


                                             8
if the audits were on file with the State agency, and 4) the type of audit deficiencies
that were being identified. All audits we reviewed (A-128 and A-133 audits of 176
sample grantees) were for a one-year period. In the last fiscal year during which
grantee audits were made, 72 percent were completed in 1991, 21 percent in 1990, and
7 percent in 1989. The most common deficiencies identified in these audits were:

       1)    internal control weaknesses (79 percent);
       2)    non-compliance with law or regulations (57 percent);
       3)     questioned costs (71 percent); and
       4)     other types of deficiencies (27 percent), such as fiscal policies
             and procedures not in place, mathematical errors on expenditure
             statements, and failure to file timely reports.

States add that based upon their assessments of AAAs the most common AAA
financial management deficiencies involve accounting (58 percent), staffing issues (33
percent), auditing (31 percent), and reporting (13 percent).

STATES PROVIDE AAAs WITH TECHNICAL                 ASSISTANCE      AND TRAINING
TO ADDRESS DEFICIENCIES

Many of the State agencies (60 percent) provide technical assistance (T/A) or training
to AAAs for addressing deficiencies identified either through the audit or assessment
processes. Forty percent of States indicate that such T/A or training was for
accounting problems and 15 percent indicate providing T/A or training in budgeting.

States further report that their capacity to provide such T/A or training to A&k is
sometimes limited and indicated they also have unmet training and T/A needs. Some
States (16 percent) indicate their most common unmet training and T/A needs are for
clearer guidance on AoA regulations, program instructions, and legislation. Another
15 percent need help with audits and 9 percent indicate a need for computer training.
Others noted T/A needs include monitoring requirements, contracting, cost allocation,
and earned income.




                                            9
        APPENDIX     A




Review Instrument For Financial
         Management




              A -1
                   FINANCIAL             MANAGEMENT                     COMPLIANCE              REVIEW

                                Department            of Health and Human           Services
                                                Administration          on Aging




State                                                                        Date

Primary Respondent                                                            Telephone

Review Team Leader                                                            Telephone


                               ..------------       ________________________________
                                                                                .------------


1.      Prior to the on-site visit, obtain copies of policies, procedures, and other guidance to Area
        Agencies on A~”ng (AAAs) on financial management from the Sttie Agency on Aging
        (St&e Agency). Review and determine whether or not these issuances address the cliteria
        identified in the following table. Indicae your responses with an X in the appropn”ate
        column reflecting these codes:

                            Y (Yes)             =        Total Compliance with Criteria
                            P (Patil)           =        Pati”al Compliance with Cn”teria
                            N (No)              =        Not in Compliance with Cn”teria

        Dun-ng the desk review, if the policy materials do ~ include those items necessary to
        make a detennin~”on of compliance ~, P, or N), mark NA (Not Available) in the
        Comments section of the table.


                                     CRITERIA                                IY     P     N          CONIMIZNTS

         a.    State Agency approves all AAA contracts with
               profitmaking grantees
               OAA Sec. 212

         b.    Title 111expenditures in rural areas equal or
               exceed 105% of specified expenditures in FY 1978
               OAA Sec. 307(a)(3)(B)

         c.    AAA administrative expenditures          statewide   do not
               exceed the 1070 limitation
               OAA Sec. 304(d)( l)(A)

         d.    There is no finding   at the 85-15 match for
               program development and coordinated activities
               until the specified percentage is expended
               statewide for AAA administration
               45 CFR 1321. 17( f)(14)




                                                                      A-1
                           CRITERIA                          Y   P   N   COMME.NTS

,..   Each AAA retains records for3 yrs after the date
      that the AM submits its final expenditure report
      or the date on which resolution of audit
      exceptions, litigation, etc. occurs (whichever date
      is later)
      45 CFR 92.42 & 74 Subpart D

f.    Participants are :iven an opportunity to make
      voluntary contributions
      45 CFR 1321.67(a)(1)

o
3“    Limitations on transfers between congregate and
      home-delivered meal allotments
      45 cm 1321.45

h.    Privacy of contributions
      45 CFR 1321.67(a) (2)

i.    Safeguards and accounting for contributions
      45 CFR 1321.67(a)(3)

j“    Support services contributions are used to expand
      support services
      45 CFR 1321.67

k.    In applying program income.    the deduction
      alternative is not used
      45 CFR 1321.73

1.    AAA administration is fi.mded from Title [11 B
      andior Title LI1C, only
      OAA Sec. 303(c)

m.    Statewide transfers between Title III B & C do not
      exceed 30%
      OAA Sec. 308(b)(5)(B)

n.    Retention of Federal government financial interest
      in senior centers
      OAA Sec. 312

 0.   AAAs spend State Agency prescribed percentages
      on specified categories of services
      OAA Sec. 307(a)(22) and 306(a)(2)

 P.    Audits for governmental   and non-governmental
       AAAs
       OMB Circulars     A-1X3, A- 133

 q.    Nutrition services contributions are used to
       increase meals, for access, or for authorized
       services.
       OAA 307(a)( 13)( C)(ii) & 45 CFR 1321.67




                                                       A-2
At this point, you should have completed the in-house compliance review of the policies,
procedures, and other guidance provided to AAAs on jinancial management.             For each ctitetia
la-lq indic~”ng an entry of NO, PARTL4L, or NOT AVAILABLE,              list it in the jirst column of
question 2 prior to the on-site interview. NOTE: For those items marked NA as a result of the
desk review, St&e Agency responses may indicate conveti”ng the NA to Y, P, N, CMSL (Criteria
met at State level), or NSC (State Agency does not address this applicable Federal cn”teria). Ask
question 2 dun”ng the on-site visit following the bn”ef explizn~”on initialing the interview.


‘7
-.    A few weeks ago, we requested copies of the policies, procedures, and other guidance
      provided to the Area Agencies on Aging concerning financial management. These were
      reviewed against specific financial management criteria contained in the Older Americans
      Act and the Title III regulations. During this review, we identified issuances which only
      partially addressed specific criteria, or we were unable to identify issuances addressing
      specific criteria. For these, I need to understand how the State Agency directs and guides
      the AAAs to ensure that financial management requirements are met for those criteria not
      addressed or partially addressed.


       Criteria # with
        No, Partial, or
      Not Available entry                       ARencv ResDonse




       (If adliitional   space is required,   use the back of the previous page)


                                                      A-3
Note: Under the Single Audit concept, the term “grantee” refers to the ~,      when tfle AAA iS
an independent agency or organ i~”on.     Otherwise, the term “grantee” refers to t~~e
multt”puvose agency or organ i~”on, when the AAA is a separate organ izalz”onal unit within
such multi” pupose agency or organ im”on.


3.   How does the State Agency ensure that audits of its grantees will be conducted      in
     accordance with the law and the regulations? (i. e., through which methods)

     a.            AA% must budget funds for audits
     b.            grantees are directed to have audits conducted in accordance   with specified
                   OMB Circulars
      c.           Other (Identi~ the specific procedure and explain)




4.    What was the last fiscal year during which audits were made of the State Agency’s
      grantees?

      a.   Beginning date -
      b.   Ending date -

      Questions 4C - 4f pertain to the last jiscal year in which audits were made:

      c.    Prior to the on-site visit, list the sample grantees below. ln preparation   for the on-
            site visit, ask the State Agency to have available for each sample A&i:

            1)    the type of audit conducted (A-128 or A-133) for the last jiscal year (identified
                  at question 4 a and b) and
            2)    the name of the audit agency conducting th~ audit.

            For each of the sample AAAs, jill-in     the approptie   infonn~”on   on the following
            table.




                                                   A-4
1
                                                                   A-128 AUDIT     A-133 AU-DIT
                GRAINTEE                  AUDIT AGENCY               (Check if       (Check if
                                                                    applicable)     applicable)

(1)



(~)



(3)



(4)



(5)



(6)



(7)



(s)



(9)



(lo)



d.     Based on your review of the provided audit information,    indicate how many A-12$ and
       A-133 audits were conducted of the sample gmntees:

e.     My review of the audit information indicates that                     (fW-in with the total
       number from d above) A-128 and A-133 audits were conducted of the sample grantees in
       the last fiscal year. Of these audits, how many of the audit reports are on file with the
       State Agency?




                                             A-5
f.	       Prior to the on-site visit, list the sample grantees below. In prepar~”on Jor the on-site
          visit, ask the State Agency to have available audit jindings for the most recently
          completed A-128 or A-133 audit of each sample AAA. For -11 of the sample ~s~
          place a check mark in each approptie        column to designate any dejiciency~ies that were
          specified in that AAA’s audit findings.


                                                            AUDIT FINDINGS    (Check all applicable)

                                          Internal      Non-complkuwe
                    GRANTEE               Control        with Law or     Questioned          Other
                                          Weakness        Regulations      costs            CIdentifi)

1
(1)



(2)



 (3)



 (4)



 (5)



    (6)



    (7)



    (8)



    (9)



    (lo)





                                                  A-6
5.   Of the following, which does the State Agency routinely use to ensure that its grantees address
     audit findings? Does the: (Complete the question by asking a, b, and c below)

      (Check a-c only if the response is YES)

     a.	                 State Agency require grantees to transmit all audit reports to the S ate Agent y
                         for review?
     b.	                 State Agency require its grantees to submit a written progress report
                         describing progress in correcting deficiencies cited in audit finding?
     c.	                 State Agency monitor and/or assess grantees until all audit deficiencies     have
                         been resolved to the satisfaction of the State Agency?


6.   What other methods are used by the State Agency to ensure its grantees address audit findings’?

     a.




      b.             Not Applicable

      May I review examples of letters or transmittals showing these? Check as appropn”tie:
      Document~”on is provided         1 is unavailable       , or will be made avaikzble               by
                                                                                                  .


7.    How does the State Agency inform its grantees as to how and when to submit information
      on the actions taken to address audit findings?

      a.             Letter
      b.             Memoranda
      c.             Procedures manual
      d.             Other, (Zdenti!)




Questions   8-15 refer to expenditures   as reported in the most recent Final SF-269 Report:


                                                    A-7
8.    The Final SF-269 Report shows that $                 (jill-in amount prior to on-site visit) in Title
      III funds was expended for State Agency administration.

      I need to review documentation   contlrming this information. Check as approptie:
      Document&”on is provided           , is unavailable       , or will be made avaikzble           by
                                             on (date)                         .

      If received, review the documentm”on and determine whether the documented expenditures
      indicate that more than $300,000, or more than 5 percent of the Title III allotments
      (whichever is greater) was spent on Stale Agency administrti”on. 77~is may require your
      calculating the 5 percent jigure.

      Indicate your finding:
                    “      .
                               a.            More than $300,000 or more than 5 percent        was
                                             spent
                               b.            $300,000 or less than 5% was spent
                               c.            Don ‘t Kkow (Check if applicable)


      Only if the documented expenditures are more than $300,000         or more than 5 percent,    ask
      question 9. Otherwise, skip to question 10.


9.    What is the reason(s) for the additional expenditures? (,}lore funds could have been spent if un
      additional .75 percent was approved by AoA (OAA 3011(b).)

      a.




      b.            Not Applicable


10.   The Final SF-269 Report shows that $                    (jW-in amount prior to on-site visit) was
      expended for the State ombudsman program       from Title III-B resources.

      I need to review documentation   confirming this information. Check as approptie:
      Documentation is provided          , is unavailable       , or will be made available           by
                                             on (dale)                         .




                                                    A-8
11.   How much was spent for the State Ombudsman            Program   in Fiscal Year 1987 from Title III-B
      resources?




      Review documentti”on and determine if the documented expenditures for the Ombudsman
      program, from Title III-B, are equal to, in excess OJ or less than the amount spent jiom this
      source in Fiscal Year 1987. (OAA 307(a) (12), (21))

      Indic&e your Jnding:    a.               Equals
                              b.               Exceeds
                              c.               Less Xhan


12.   The Final  SF-269 Report shows that $               (jW-in amount prior to on-site visit) in Title
      IKI funds was expended for Area Agency administration.

      I need to review documentation      confirming this information. Check as appropn”ate:
      Document&-on is provided              , is unavailable        , or will be made available         by
                                                on (date)                          .

       If received, review the documenta”on and determine whether Title III st~ewide expenditures
      for AAA administr@”on are equal to or less than 10 percent of the Title III allotment that
       remains afier subtracting Title III State administrti”ve costs.

      Indicate your finding:
      a.            Equal to
      b.            Less than                If less, how much less?     $
                    More than             If more, how much more?        $
      ;             Don ‘t how       (Check if applicable)


13.   Were funds expended    for program deve[oprnent and coordination using a matching ratio?

      a.            Yes          Zf yes, what was the matching ratio? (e. g., 85-15, 75-25)




                                 If yes, how much was spent statewide for program development        and
                                 coordination?

                                 $

      b.            No
      c.            Don’t Know (Check if applicable)



                                                      A-9
Prior to the on-site visit, determine if the State Agency repotied any transfers among allotments
during the hzst Federal fiscal year. If none were repotied, go to question 16. If transfers were
repotied, ask the follo wing approptie     questions ~re-marked pn”or to the on-site visit), depending
upon the type of transfer(s) which occurred.



14.	   Prior to our visit, we reviewed fiscal data to determine if any transfers occurred among
       allotment during the last Federal fiscal year. The State Agent y reported (Fill-in with a, b, or
       both a and be as review indicated):

       a.	   Transfers between Title III-B and Title III-c     in the amount of :$
             (fill-in amount prior to on-site visit).

                     Not Applicable

             (If applicable) 1 need to review documentation   confirming this information. Check as
             appropn”~e: Document~”on is provided             , is unavailable       , or will be made
             available         by                                                       on (d&e)
                                      .

             Review the document~”on and indic~e below whether or not documented transfers
             between Title III-B and Title III-C exceed 30 percent of either of these allotments.

             a.            Yes
             b.            No
             c.            Don ‘t Know

       b.	   Transfers between Title III-C-1 and Title III-C-2     in the amount of   $
             (/W-in amount prior to on-site visit).

                     Not Applicable

             (If applicable) I need to review documentation    confirming this information. Check as
             approptie:     Document~”on is provided          , is unavailable        , or will be made
             avaikzble         by                                                        on (date)
                                      .



             Review the document~”on and indicate below whether or not documented trwlsfem
             between Title III-C-1 and Title III-C-2 exceed 30 percent of either of these allotments.

             a.            Yes (IJ YES, ask question 15)
             b.            No (If NO, go to question 16)
             c.            Don ‘t Know (If Don ‘t Know, go to question 16)




                                                    A-1o

15.   A review of your documentation indicates transfers between Title III-C-1 and Title III-C-2
      exceeded 30 percent for either of these allotments; were such transfers approved by the
      Administration on Aging?

      a.             Yes
      b.             No
      c.             Don’t Know (Check if applicable)
      d.             Not Applicable


16.   The last Certificationof Maintenance of Effort, dated          _ shows that
      $                   (j711-in date and amount prior to on-site visit) was expended from State
      sources to meet administrative and program matching requirements.

      I need to review documentation   confirming this information. Check as appropriate:
      Documentti”on is provided          , is unavailable        , or will be made       available by
                                                    on (d&e)                         .

      Prior to the last Certification of Maintenance of Effort, the average amount spent in the previous
      three Federal fiscal years from State sources to meet Maintenance of Effort requirements was
      reported to be $                        (fill-in amount prior to on-site visit)
      Note: Agency may not use avera~”ng; you will have to calcutie the 3-year average.

      I need to review documentation confirming the amount expended from State sources to meet
      administrative and program matching requirements for these three years. Check as appropn”ale:
      Document&”on is provided         , is unavailable ~      or will be made avaiilzble     by
                                                          on (dhte)                       .

       Review the document~”on and determine if the documented 3 year average amount expended
      for Maintenance of Effoti is equal to, greater than, or less than the amount repotied in the
       most recent Ce~!jic&”on of Maintenance of Effoti.

      Indic&e your finding:    a.           Equal to
                               b.           Gre&er than
                               c.           Less than


17.   Prior to the on-site visit, obta”n a copy of the inst~ment   used by the State Agency to assess
      compliance and performance of A&is with jhzncial         management law and regutions.       If the
      questions on jlnanciai management are pati of a kzrger review instrument, ask the St&e
      Agency to identzfi or highlight those items petim”ning to the review of financial management
      practices.  Have the St&e Agency mark the instrument(s) with the applicable ctiena (e.g., a,
      b, c, etc.) using a provided copy of the cnleriiz. Zhis infonnationaL request shouki be
      included in the letter thti is sent to the State Agency outlining the Compliance Review.




                                                  A-11
Review and determine whether or not the assessment instmments address the financial
management ctieria identij?ed in the Jollo wing table. Indic&e your responses with an X in
the appropriate column reflecting these codes:

                      Y (Yes)        =        Total Compliance with Criteria
                     P (Patil)       =        Pa&”al Compliance with Criteria
                     N (No)          =        Not in Compliance with Criten”a

Duting the desk review, if the assessment instrument and related mtierials do ~t include
those items necessary to make a determinti”on of compliance (Y, P, or N), mark N. (Not
Available) in the Comments section of the table.


                              CRITERIA                              Y   P   N   COMMENTS

   a.   State Agency approves      all AAA contracts with
        profitmaking grantees
        OAA Sec. 212

   b.   NOT APPLICABLE             TO AAA

   c.   AAA administrative expenditures         statewide do not
        exceed the 10’% limitation
        OAA Sec. 304(d)( 1)(A)

   d.   There is    no funding at the S5- 15 match for
        program     development and coordinated activities
        until the   specified percentage is expended
        statewide    for .%AA administration
        45 cm       1321.17(9(14)

   e.   Each AAA retains records for 3 yrs after the date
        that the AAA submits its final expenditure report
        or the date on which resolution of audit
        exceptions. litigation. etc. occurs (whichever date
        is later)
        45 CFR 92.42 & 74 Subpart D

   f.   Participants are given an opportunity to make
        voluntary contributions
        45 CFR 1321.67(a)(1)

   ~“   Limitations on transfers between congregate and
        homedelivered meal allotments
        45 cm 1321.45

   h.   Privacy of contributions
        45 CFR 1321 .67(a) (2)

   i.   Safeguards and accounting        for contributions
        45 CFR 1321.67(a)(3)

   j.   Support services contributions       are used to expand
        support services
        45 CFR 1321.67
                                                                                             I
                                                             A-12
                                  CRITERIA                            Y   P   N   coNfMIINTs
       k.     NOT APPLICABLE TO AAA

       1.	    AAA administration is funded from Title [II B
              and/or Title III C, only
              OAA Sec. 303(c)

       m.     NOT APPLICABLE         TO AAA

       n.	    Retention of Federal government    financial interest
              in senior centers
              OAA Sec. 312

       0.	    AAAs spend State Agency prescribed      percentages
              on specified categories of senices
              OAA Sec. 307(a)(22) and 306(a)(2)

        P.	   Audits for governmental and non-governmental
              AAAs
              OMB Circulars A-1X3, A-133

        q.	   Nutrition services contributions are used to
              increase meals, for access. or for authorized
              services.
              OAA 307(a) (13)(C)(ii) & 45 CFR 1521.67


For each criteria 17a-1 7q indic~”ng an entry OJ No, PA.RHAL,     or NOT AVAILABLE,     list it in
the jlrst column of question 18 prior to the on-site interview. NOTE: For those items marked
iVA as a result of-the desk review, State Agency responses may indicate conveti”ng the NA to Y,
P, N, CMSL (Criteria met at State level), or NSC (Stale Agency does not address this applicable
Federal criteti).   Ask question 18 during the on-site visit.

18.	   A few weeks ago, AoA also requested a copy of the assessment instrument and any
       applicable tools used by the State Agency to assess compliance and performance of AAAs
       with financial management law and regulations.       These were reviewed against the specific
       financial management criteria contained in the older Americans Act and the Title III
       regulations.    During this review, we identified issuances which only partially addressed
       specific criteria, or we were unable to identify issuances addressing specific criteria. For
       these, I need to understand how the State Agency assesses the AAAs to ensure that financial
       management requirements are met for those criteria not addressed or partially addressed.

       Criteria # with
        No, Partial, or
       Not Available entrv




                                                           A-13
      (If additional   space is required,    the back of the previous page)


19.   What are the most common financial management deficiencies of the ANA?

      a.




      b.               Don$t Know (Cheek if applicable)




                                                  A-14
20.   What technical assistance orttitig        hasthe   Smte Agency provided toWs      in order to
      address these deficiencies?

      a.




      b.             Don’t Know (Check i’~a..@cable)


21.   What kind                assistance or training on financial management is needed by the State
      Agency?

      a.




      b.             Don’t Know (Check if applicable)


2).   What was the                              ending date of the most recent area plan year’?

      a.    Beginning date
      b.    Ending date

Questions 23 and 24 apply to the most recent area plan year:


23.   How many contracts did MS            award to profitmaking   firms?

      a.             (Indicate number)
      b.             Don’t Know (Check if applicable)
      c.             None




                                                    A-15
24.   If any contracts   were made with profitmaking     firms, how many firms were approved by the
      State Agency?

      a.                   (Indicate number)
      b.             Donut Know (Check if applicable)


25.   In Fiscal Year 1978, what was the total amount of the expenditures       in rural areas from Title
      III, Title V (multipurpose senior centers), and Title VII (nutrition)?

      a.                             Title III Expenditures
      b.                             Title V Expenditures
      -.
      L.                             Title VII Expenditures
      d.                             Don’t Know (Check if applicable)


26.   Of the total amount of the Title III expenditures included in the most recent Final SF-269
      Report, how much was expended in rural areas?

      a.    $
      b.             Don’t Know (Check if applicable)

27.   The preselected sample of 10 Area Agencies on Aging were identified prior to the on-site
      visit. This sample is to be used throughout the compliance review process for all jive
      areas, the jht compliance review being Stewardship.

      For the sample AAAs, obtain the most currently completed annual cycle of St&e Agency
      assessment instruments and corresponding assessment reports (if any). Review the
      assessment J7ndings and determine the extent to which each of the sample AAAs were in
      compliance with each of the criteria identified in Attachment A. Record your responses
      on the follo wing table using these codes:

                          Y ~es)        =     Total Compliance with Criteria
                          P (Pati)      =     Patil   Compliance with Criteria
                          N (.0)        =     Not in Compliance with Criteria
                          Lvsc          =     No State Criteria (State Agency does not assess this
                                              Federal criteria - identified through in-house review of
                                              Sttie Agency’s assessment tool and retied materials)
                          CMSL          =     Ctieria met al Stale level
                          o             =     Other Finding @rovide explanti”on and indicate by
                                              repoti number and criten”a number in the Comments
                                              section Jollo wing the table)

      As a few of the Federal ctieti        are not applicable to the AAAs, they have been elinlinated
      from the following table.



                                                      A-16
 AAA
 Name

 Sample     1   ~       3   4   5      6   7   8   9   10
 Number

 Criteria

 a.

 c.



 d.


 e.



 f.


 g“


 h.


 i.




 1.


 n.


 o.



 P“


 q“



COMMENTS:




[INTERVIEW COMPLETED]




                                A-17
                              ENDNOTES

1. This requirement has been revised in the 1992 Amendments to the OAA. The
new requirement in Section 307(a)(21) reads: “The plan shall provide assurances that
the State agency, in carrying out the State Long-Term Care Ombudsman program
under Section 307(a) (12), will expend not less than the total amount expended by the
agency in fiscal year 1991, in carrying out such a program under this title.”




                                         A -2


                                                                              ——.—..
